HHS/OIG, Audit -"Review of Texas Medicaid Claims for 21 to 64 Year Old Residents of Institutions for Mental Diseases Who Were Temporarily Released to Acute Care Hospitals,"(A-06-00-00074)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Texas Medicaid Claims for 21 to 64 Year Old Residents of Institutions
for Mental Diseases Who Were Temporarily Released to Acute Care Hospitals," (A-06-00-00074)
December 13, 2001
Complete
Text of Report is available in PDF format (589 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that, for the period September 1, 1997 through August
31, 2000, the State Agency improperly claimed FFP of $424,838 for institutions
for mental disease residents between the ages of 21 to 64 who were temporarily
released from State hospitals to general acute care hospitals for medical treatment.  We
recommended that the State Agency:   (1) refund $424,838 to the Federal Government
for FFP improperly claimed; (2) cease claiming FFP for clients between the ages
of 22 to 64 and those aged 21 at admission when these clients are temporarily released
from State hospitals to general acute care hospitals for medical treatment; and
(3) develop controls or edits within its Medicaid Management Information System
to detect and prevent claims for FFP for clients between the ages of 22 to 64 and
for those aged 21 at admission who are temporarily released from State hospitals
to general acute care hospitals for medical treatment.  The State Agency agreed
with our recommendations.